Fiscal Year 2002 (Second Half) | Federal Trade Commission
Skip navigation
Main Menu Search
Utility menuContact
Stay Connected
Privacy Policy
FTC en español
Search form
Search
Main Menu
About the FTCWhat We DoEnforcement Authority
Our HistoryFTC Moments
Send Us Your Moment
Our Seal
Centennial Dinner & Symposium
Oral Histories
FTC Minutes: The Early Years
Building Images
CommissionersEdith Ramirez
Julie Brill
Maureen K. Ohlhausen
Joshua D. Wright
Terrell McSweeny
Bureaus & OfficesBureau of Competition
Bureau of Consumer Protection
Bureau of Economics
Office of Congressional Relations
Office of Equal Employment Opportunity
Office of International Affairs
Office of the Executive Director
Office of the General Counsel
Office of Policy Planning
Regional Offices
Office of Administrative Law Judges
Office of Public Affairs
Office of the Secretary
BiographiesBureau and Office Directors
Former Commissioners
Former Bureau and Office Directors
BudgetsFinancial Documents
Other Financial Information
Performance
Office of Inspector GeneralScam Alert
What You Need to Know About the Office of the Inspector General
Reporting Waste, Abuse or Mismanagement
Whistleblower Protection
OIG Audits and Evaluations
OIG Investigations
OIG Reading Room
Notice Concerning Nondisclosure Policies, Forms, or Agreements
Contact the OIG
FOIAAbout the Privacy Act
FOIA Reading Rooms
FOIA Request
Fee Regulations
Freedom of Information Act Contacts
Frequently Asked Questions (FAQ's)
Links
Table of Contents
Exemptions
Careers at the FTCTypes of Jobs at the FTC
The FTC Benefits
Diversity
News & EventsPress Releases
Commission Actions
Media ResourcesConsumer Finance
Mergers and Competition
Mobile Technology
The Do Not Call Registry
Tools for Consumers
Truth In Advertising
Protecting Consumer Privacy
Identity Theft and Data Security
Military Consumer Protection
Events CalendarAll Events
Weekly Calendar
Weekly Calendar Archive
Speeches
Audio/VideoFeatured Videos
FTC Events
For Consumers
For Business
En Español
Social MediaFTC Twitter Chats
General Social Media Chats
Tweeting FTC Workshops
BlogsCompetition Matters
Tech@FTC
Commenting Policy
EnforcementCases and ProceedingsCase Document Search
Refunds
Commission Decision Volumes
Closing Letters and Other Public Statements
Petitions to Quash
Adjudicative Proceedings
Premerger Notification ProgramStatute, Rules and Formal Interpretations
Form and Instructions
Informal Interpretations
Early Termination Notices
Current Thresholds
Filing Fee Information
Post-Consummation Filings (HSR Violations)
Medicare Act Filings
HSR Resources
Contact Information
First Time Filer?
Merger Review
Anticompetitive Practices
RuleseCFR
Rulemaking and Regulatory Reform Proceedings
Regulatory Review
Statutes
Consumer Sentinel NetworkMembers
Reports
Newsletters
Data Contributors
Criminal Liaison UnitResults
CLU Awards
Contact CLU
CLU Fact Sheet
PolicyAdvocacyAmicus Briefs
Advocacy Filings
Other Applications, Petitions, and Requests
Merits Briefs
Advisory Opinions
Cooperation Agreements
Federal Register Notices
ReportsPolicy Reports
US Submissions to OECD and Other International Competition Fora
Litigation Status Report
Magnuson-Moss Warranty Public Audit Filings
Webb-Pomerene Act Filings
Testimony
Public CommentsAdvanced Comment Search
Policy Statements
InternationalInternational Competition
International Consumer Protection
International Technical Assistance Program
International Cooperation Agreements
Competition & Consumer Protection Authorities Worldwide
International Fellows Program
Tips & AdviceFor Consumers
Business Center
Competition Guidance
I Would Like To...Submit a Consumer Complaint to the FTC
File a Comment
Get a Free Copy of My Credit Report
List a Number on the National Do Not Call Registry
Report An Antitrust Violation
File Documents in Adjudicative Proceedings
You are hereHome » About the FTC » Office of Inspector General » OIG Reading Room » Semi-Annual Reports to Congress » Fiscal Year 2002 (Second Half)
Fiscal Year 2002 (Second Half)
November 2002
The Honorable Timothy J. Muris
Chairman
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Washington, D.C. 20580
Dear Chairman Muris:
The attached report covers the Office of Inspector General's (OIG) activities for the second half of fiscal year 2002, and is submitted according to Section 5 of the Inspector General Act of 1978, as amended.
OIG audit efforts for the six-month reporting period ending September 30, 2002, focused primarily on reviewing IT security programs. In tandem with the agency, my office issued its second report under the Government Information Security Reform Act (GISRA). The OIG review found that security improvements have been achieved from a year ago, yet the risk of potential harm from a successful insider attack remained high. Consequently, more needed to be done to protect agency assets and information. Many of the internal security vulnerabilities that were identified during our fiscal year 2002 review were expeditiously dealt with by management. Thus, while additional security enhancements are still needed, the OIG has noted two years of continuous improvements in the agency's information security program.
As in the past, management has been responsive to all OIG recommendations. I appreciate management's support, and I look forward to working with you in our ongoing efforts to promote economy and efficiency in agency programs.
Sincerely,
Frederick J. Zirkel
Inspector General
TABLE OF CONTENTS
TRANSMITTAL
INTRODUCTION
AUDIT ACTIVITIES
Completed Audits/Reviews Planned Audits
INVESTIGATIVE ACTIVITIES
Investigative Summary Investigations Referred for Action or Closed During the Period Matters Referred for Prosecution
OTHER ACTIVITIES
Significant Management DecisionsAccess to Information Internet Access Audit Resolution Review of Legislation Contacting the Office of Inspector General
TABLES
Table I: Summary of Inspector General Reporting Requirements
Table II: Inspector General Issued Reports With Questioned Costs
Table III: Inspector General Issued Reports With Recommendations That Funds Be Put To Better Use
INTRODUCTION
The Federal Trade Commission (FTC) seeks to assure that the nation's markets are competitive, efficient, and free from undue restrictions. The FTC also seeks to improve the operation of the marketplace by ending unfair and deceptive practices, with emphasis on those practices that might unreasonably restrict or inhibit the free exercise of informed choice by consumers. The FTC relies on economic analysis to support its law enforcement efforts and to contribute to the economic policy deliberations of Congress, the Executive Branch and the public.
To aid the FTC in accomplishing its consumer protection and antitrust missions, the Office of Inspector General (OIG) was provided five workyears and a budget of $710,000 for fiscal year 2002.
AUDIT ACTIVITIES
During this semiannual period, the OIG issued its second Government Information Security Reform Act (GISRA) evaluation, and a review of contract administration for two large software development contracts. The OIG also initiated fieldwork for its review of the unauthorized use of Federal agency names in unsolicited commercial emails or "spam." In addition, the OIG began its audit of the FY 2002 FTC financial statements. Details of these audits and reviews are provided below.
Completed Audits/Reviews
Audit Report Number
Subject of Audit
AR 02-053
GISRA Technical Evaluation Report
AR 02-053A
GISRA Technical Evaluation Report - Executive Summary
BR 02-054
(Briefing Report)
Review of Contract Administration in the Software Development Branch
Summary of Findings for Reviews Issued During the Current Period
In AR 02-053 and AR 02-053A, GISRA Technical Evaluation Report and Executive Summary, the OIG performed an evaluation of information security at the FTC pursuant to requirements contained in GISRA. This is the second annual GISRA evaluation completed by the OIG. Our first report, issued in September 2001, focused on the management and operational aspects of the security controls at the FTC. This year, the OIG performed a technical assessment of the FTC's Information Technology (IT) environment, to include network infrastructure (routers, hubs and switches), desk top and server systems (PC's, e-mail and database servers) and select application systems.
The review team performed its scans from inside the agency by hooking up to the network through a port located in the OIG. The team did not perform an external penetration test, i.e., it did not attempt to "break in" to the FTC's computer system from outside the agency. Rather, the review team focused on mapping the internal network and equipment on the network to search for vulnerabilities that would enable either internal or external unauthorized users to access sensitive systems.
The internal scan identified both strengths and weaknesses in the agency's information security program. On the positive side, the review team was unsuccessful in accessing information stored on the hard drives of FTC employees. Further, the remote management account on each desktop is protected by a strong password. We also found network servers to be configured securely.
On the negative side, the OIG found vulnerabilities that permitted the review team to obtain unauthorized access to sensitive resources and information. Although access was possible, no files or data were downloaded. If any disgruntled employee, student or contract employee with malicious intent achieved the same level of access, s/he could have read, altered or deleted any data file stored on any one of the agency's data servers, to include such information as premerger filings, consumer complaints, employee e-mails or Commission minutes from nonpublic meetings.
The OIG used readily-available software tools, many of them freely downloaded from the Internet, to scan the network and identify linked computers. The scans found that many of the computers were configured to share files with anyone who knew where to look. The scans also revealed that many of the computers required no passwords for access or were "protected" by easily crackable passwords. Such rudimentary security oversights were not found on desktop computers where one might expect security lapses to occur. Rather, these were identified on Network servers and routers that are managed by IT specialists and provided access to all of the agency's sensitive information.
Such vulnerabilities were generally of the common "house keeping" variety (as opposed to architectural or systemic vulnerabilities) and, thus, can be quickly corrected with little or no additional resources. Many occur because security components of operating software are often left set on the lowest default level to ease installation and administration. This initial password is then not changed or deleted.
The OIG understands that the majority of FTC users are unlikely to possess the technical computer knowledge to achieve the level of access obtained by the OIG. But, the OIG believes that there exists a fairly significant population of individuals working at the agency with the requisite knowledge to achieve the same access as OIG evaluators. Furthermore, many of these individuals are students or contractors who do not undergo any background check.
The OIG developed a matrix containing 31 technical recommendations and met with IT team leaders and staff to discuss each recommendation and respond to their questions and/or comments. This process created a useful dialog about methods to enhance security and, in select instances, how best to make configuration changes to implement the OIG recommendations. As a result, most recommendations were implemented within days of the conclusion of our fieldwork. Management has developed an action plan to implement all remaining recommendations.
In BR 02-054, Review of Contract Administration in the Software Development Branch, the audit objective was to determine compliance with selected aspects of the Federal Acquisition Regulation (FAR) and FTC contract administration requirements for information technology support contracts. The review focused on whether or not the contracts provide for personal services, whether the work performed was within the scope of the contracts, and the adequacy of the technical monitoring and oversight. Two large contracts with software development firms were selected for review. From October 1999 to July 2002, FTC expended about $5.7 million on these two contracts.
The OIG obtained necessary background information on the two contracts, along with details of how they were being monitored by FTC contract officials. The information was then tested and supplemented by examining documents and administering a questionnaire to Software Development Branch staff, including both government and contractor employees. Additional interviews were conducted with contracting officials and other FTC staff.
Review of the documents provided and tests of those documents indicated that contract monitoring mechanisms are in place to provide adequate technical monitoring and oversight over the progress of the work and the contractors' performance. Documents examined and interview responses indicated that work performed by contractor employees was within the scope of work of their respective contracts.
When 13 of 18 contractor employees responded to the OIG survey saying that they were being supervised by a government employee, concerns arose about the possible issuance of a personal services contract. Personal services, which is prohibited by the FAR, would result if continuous supervision and control over the contractor employees were being exercised by a government officer or employee.
Based on a close review of relevant contract provisions and after discussions with both the agency's contracting officer and General Counsel staff it was determined that neither contract contained provisions indicative of personal services, i.e., the government did not reserve the right to (i) assign tasks to contractor staff or prepare work schedules, (ii) control the method by which the contractor performs the service, the number of people employed, and the specific duties of individual employees, (iii) provide for a performance review of individual employees, or (iv) have contractor employees removed from the job for security concerns or misconduct.
Audits in Which Fieldwork is in Progress
Audit Report Number
Subject of Audit
AR 03-055
Audit of FTC Financial Statements for Fiscal Year 2002. The objective of this financial audit is to determine whether the agency's financial statements present fairly the financial position of the agency. The statements to be audited are the Balance Sheet as of September 30, 2002, and the related Statement of Net Cost, Statement of Changes in Net Position, Statement of Budgetary Resources, Statement of Financing, and Statement of Custodial Activity for the year then ended. Audit fieldwork performed during this period include preliminary tests of internal and management controls over the accumulation and reporting of financial information, and compliance with laws and regulations that have a material affect on the financial statements.
In addition to following up on reportable conditions identified in the prior year audit, including the payment of interest penalties, aging of redress cash and referral of past due receivables to Treasury, the OIG will also continue to work with program staff to improve the accuracy, timeliness and usefulness of financial information submitted to the FTC by court-appointed receivers.
BR 03-056
Review of "Spam" Database for the Unauthorized Use of Federal Agency Names. In the prior period, the OIG period, the OIG reported on its efforts to search the agency's unsolicited commercial email (UCE) or "spam" database for, among other things, matches with names of individuals on the FBI's "Watch List" of suspected terrorists, as terrorist organizations occasionally use fraudulent advertisements and promotions in email solicitations to fund their activities. As a follow-up analysis of the UCE, the OIG again searched the spam database for scams that attempt to legitimize their product or service by relating it to departments or agencies of the Federal government, either claiming to be such an agency,
or affiliated with such agency or claiming agency approval for their activities. The OIG will alert sister Offices of Inspector General for potential follow-up when such e-mails are identified.
Planned Audits
Audit Report Number
Subject of Audit
AR 03-XXX
Review of Systems Used to Capture Annual Performance Measures Under the Government Performance and Results Act. The OIG is planning a follow-up review of the systems and processes used by the FTC to capture and report on its performance measures. Since our initial review, the agency has modified many of its measures while refining its collection methods. In our prior review of the agency's performance measures, the OIG found that systems were generally in place to collect and process data and to report it timely. However, the methodology used for accumulation of selected performance data was not completely defined to allow for the reporting of measures accurately and consistently. To address this weakness, the OIG recommended that the agency's GPRA task force define the rationale behind each of the 13 performance measures; i.e., clearly articulate how consumers and/or businesses are better off when the FTC meets or exceeds its performance targets.
The OIG will follow-up on management actions to more clearly define what is being measured and to accurately report these outcomes. Specifically, the OIG will (i) verify the existence of measurement systems; (ii) determine whether the measures themselves are quantifiable; and (iii) assess whether the systems are maintaining accurate and timely data. The OIG will review the 21 performance measures detailed in the FY 2004 OMB Budget Request.
INVESTIGATIVE ACTIVITIES
The Inspector General is authorized by the IG Act to receive and investigate allegations of fraud, waste and abuse occurring within FTC programs and operations. Matters of possible wrongdoing are referred to the OIG in the form of allegations or complaints from a variety of sources, including FTC employees, other government agencies and the general public.
Reported incidents of possible fraud, waste and abuse can give rise to administrative, civil or criminal investigations. OIG investigations might also be initiated based on the possibility of wrongdoing by firms or individuals when there is an indication that they are or were involved in activities intended to improperly affect the outcome of particular agency enforcement actions. Because this kind of wrongdoing strikes at the integrity of the FTC's consumer protection and antitrust law enforcement missions, the OIG places a high priority on investigating it.
In conducting criminal investigations during the past several years, the OIG has sought assistance from, and worked jointly with, other law enforcement agencies, including other OIG's, the Federal Bureau of Investigation (FBI), the U.S. Postal Inspection Service, the U.S. Secret Service, the U.S. Marshal's Service, the Internal Revenue Service, Capitol Hill Police, as well as and state agencies and local police departments. In past years, the OIG has also provided assistance to, and worked with foreign government law enforcement agencies, including the Royal Canadian Mounted Police and the Canada Customs and Revenue Agency.
Investigative Summary
During this reporting period, the OIG received 45 complaints/allegations of possible wrongdoing. Of the 45 complaints, 22 involved issues that fall under the jurisdiction of FTC program components (identity theft, credit repair, etc.). Consequently, the OIG referred these matters to the appropriate FTC component for disposition. Another five complaints were referred to other government and/or law enforcement agencies for ultimate disposition.
Of the remaining 18 complaints, 13 were closed without any action. The OIG conducted preliminary investigative work on the remaining 5 matters.
The first of these five matters dealt with a possible web hijacking. After determining that an FTC employee was not implicated in the web hijacking, the OIG referred the matter to an FTC program component.
The second complaint, directed not at an individual, but rather at a serious IT security weakness, was determined to have merit and, as such, resulted in the OIG IT security review/audit team conducting some additional testing. These tests confirmed the security weakness identified in the complaint. OIG results were immediately reported to management and the needed security upgrades implemented.
The third matter involved an attempted impersonation by an unknown person(s) using as a ruse the FTC's newly proposed "do not call" list. The OIG, after being unable to confirm the identity of the caller, referred the matter to the FTC's identity theft unit for inclusion into the agency's government-wide data base.
The fourth matter involved a complaint by an attorney who, on behalf of his client, expressed concern that the FTC had improperly delayed the granting of an early termination request under the Hart Scott Rodino (HSR) Antitrust Improvements Act. As the OIG found no evidence to suggest any improper action on the part of HSR staff, the matter was closed.
The final matter involved the OIG opening a preliminary investigation into an allegation made by FTC staff concerning enforcement of parking restrictions at the main entrance to the FTC building. These restrictions were established, in part, to enable daycare center patrons to park when dropping off and picking up children at the daycare center. The individual making the complaint observed that, on many days, the restrictions were being violated with no apparent penalty, often by the same individuals. He asked the OIG to consider looking into the matter and, if appropriate, making a referral to the District of Columbia Inspector General for follow-up into possible abuse by D.C. parking enforcement personnel.
The OIG monitored the parking spaces over a number of days during the restricted times, noting cars and recording all violations issued in an effort to validate the complaint. The OIG also discussed parking at this location with a Washington D.C. parking enforcement officer responsible for patrolling the area. The OIG found that cars routinely exceeded the parking time limitation (15 minutes), although the OIG identified only a few repeat offenders. More importantly, the OIG observed evidence of parking enforcement. On three of the five days, the OIG noted that violators had received parking tickets. Further, the parking officer indicated that the city had recently increased enforcement of the restrictions throughout the day. As the OIG did not note a pattern of abuse by the same individuals, and given the evidence of parking enforcement, the OIG determined that a referral to the District of Columbia OIG was not warranted. The OIG then closed the investigation.
Following is a summary of the OIG's investigative activities for the six-month period ending September 30, 2002.
Cases pending as of 3/31/02
3
Plus: New cases
+5
Less: Cases closed
-5
Cases pending as of 9/30/02
3
Matters Referred for Prosecution
During the current reporting period the OIG did not refer any cases to a federal prosecutor.
OTHER ACTIVITIES
Significant Management Decisions
Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any significant management decision, such disagreement must be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change a significant resolved audit finding must also be disclosed in the semiannual report. For this reporting period there were no significant final management decisions made on which the IG disagreed, and management did not revise any earlier decision on an OIG audit recommendation.
on, records, or assistance has been unreasonably refused, or otherwise has not been provided. A summary of each report submitted to the agency head in compliance with Section 6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.
During this reporting period, the OIG did not encounter any problems in obtaining assistance or access to agency records. Consequently, no report was issued by the IG to the agency head in accordance with Section 6(b)(2) of the IG Act.
Internet Access
The OIG can be accessed via the world wide web at: http://www.ftc.gov/oig A visitor to the OIG home page can download recent 1996 - 2002 OIG semiannual reports to Congress, the FY 1998 - 2001 financial statement audits, and other program and performance audits issued beginning in FY 1999. A list of audit reports issued prior to FY 1999 can also be ordered via an e-mail link to the OIG. In addition to this information resource about the OIG, visitors are also provided a link to other federal organizations and offices of inspectors general.
Audit Resolution
As of the end of this reporting period, all OIG audit recommendations for reports issued in prior periods have been resolved. That is, management and the OIG have reached agreement on what actions need to be taken.
Review of Legislation
Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed legislation or regulations relating to the agency or affecting the operations of the OIG. During this reporting period, the OIG reviewed several legislative items pertinent to the federal law enforcement community.
On May 14, 2002, the IG testified before the House Subcommittee on Government Efficiency, Financial Management and Intergovernmental Relations about the costs and benefits of non-CFO agencies conducting financial statement audits. The subcommittee was considering a bill that would expand the CFO Act to require all federal agencies with budgets in excess of $25 million to produce financial statements and to have the statements audited annually. The CFO Act requires all cabinet-level agencies to undergo such a review.
The OIG also reviewed legislation designed to established a Homeland Security Agency and another directive from OMB regarding privacy concerns pertaining to the reporting of investigative statistics.
Contacting the Office of Inspector General
Employees and the public are encouraged to contact the OIG regarding any incidents of possible fraud, waste, or abuse occurring within FTC programs and operations. The OIG telephone number is (202) 326-2800. To report suspected wrongdoing, employees and the public should call the OIG's chief investigator directly on (202) 326-2581. A confidential or anonymous message can be left 24 hours a day.
The OIG is located in Suite 1110, 601 New Jersey Avenue, Washington, D.C. Office hours are from 8:30 a.m. to 6:00 p.m., Monday through Friday, except federal holidays. Mail should be addressed to:
Federal Trade Commission Office of Inspector General 600 Pennsylvania Avenue, NW Washington, DC 20580
TABLE I
SUMMARY OF INSPECTOR GENERAL
REPORTING REQUIREMENTS
IG Act Reference
Reporting Requirement
Page(s)
Section 4(a)(2)
Review of legislation and regulations
9
Section 5(a)(l)
Significant problems, abuses and deficiencies
2, 3, 4
Section 5(a)(2)
Recommendations with respect to significant problems, abuses and deficiencies
3
Section 5(a)(3)
Prior significant recommendations on which corrective actions have not been made
9
Section 5(a)(4)
Matters referred to prosecutive authorities
8
Section 5(a)(5)
Summary of instances where information was refused
8
Section 5(a)(6)
List of audit reports by subject matter, showing dollar value of questioned costs and funds put to better use
1
Section 5(a)(7)
Summary of each particularly significant report
1
Section 5(a)(8)
Statistical tables showing number of reports and dollar value of questioned costs
11
Section 5(a)(9)
Statistical tables showing number of reports and dollar value of recommendations that funds be put to better use
12
Section 5(a)(10)
Summary of each audit issued before this reporting period for which no management decision was made by the end of the reporting period
9
Section 5(a)(11)
Significant revised management decisions
8
Section 5(a)(12)
Significant management decisions with which the Inspector General disagrees
8
TABLE II
INSPECTOR GENERAL ISSUED REPORTS
WITH QUESTIONED COSTS
Number
Number Dollar Value
Questioned Costs
Unsupported Costs
A. For which no management decision has been made by the commencement of the reporting period
0
0
0
B. Which were issued during the reporting period
0
0
0
Subtotals (A + B)
0
0
0
C. For which a management decision was made during the reporting period
0
0
0
(i) dollar value of disallowed costs
0
0
0
(ii) dollar value of cost not disallowed
0
0
0
D. For which no management decision was made by the end of the reporting period
0
0
0
Reports for which no management decision was made within six months of issuance
0
0
0
TABLE III
INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
Number
Dollar Value
A. For which no management decision has been made by the commencement of the reporting period
0
0
B. Which were issued during this reporting period
0
0
C. For which a management decision was made during the reporting period
0
0
(i) dollar value of recommendations that were agreed to by management
0
0
- based on proposed management action
0
0
- based on proposed legislative action
0
0
(ii) dollar value of recommendations that were not agreed to by management
0
0
D. For which no management decision has been made by the end of the reporting period
0
0
Reports for which no management decision was made within six months of issuance
0
0
Utility menuContact
Stay Connected
Privacy Policy
FTC en español
About the FTC
What We Do
Our History
Commissioners
Bureaus & Offices
Biographies
Budgets
Performance
Office of Inspector General
FOIA
Careers at the FTC
News & Events
Press Releases
Commission Actions
Media Resources
Events Calendar
Speeches
Audio/Video
Social Media
Blogs
Enforcement
Cases and Proceedings
Premerger Notification Program
Merger Review
Anticompetitive Practices
Rules
Statutes
Consumer Sentinel Network
Criminal Liaison Unit
Policy
Advocacy
Advisory Opinions
Cooperation Agreements
Federal Register Notices
Reports
Testimony
Public Comments
Policy Statements
International
Tips & Advice
For Consumers
Business Center
Competition Guidance
I Would Like To...
Submit a Consumer Complaint to the FTC
File a Comment
Get a Free Copy of My Credit Report
List a Number on the National Do Not Call Registry
Report An Antitrust Violation
File Documents in Adjudicative Proceedings
Site Information
Privacy Policy
Website Policy
No FEAR Act
USA.gov
Accessibility
Digital Government Strategy
Open Government
Federal Trade CommissionHeadquarters:
600 Pennsylvania Avenue, NW
Washington, DC 20580Contact Us
Facebook
Twitter
YouTube
Stay Connected
Stay Connected with the FTC